<html>
<title> - TRIBAL SELF-GOVERNANCE</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
                         TRIBAL SELF-GOVERNANCE

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

OVERSIGHT HEARING ON TRIBAL SELF-GOVERNANCE: OBSTACLES AND IMPEDIMENTS 
                    TO EXPANSION OF SELF-GOVERNANCE

                               __________

                           SEPTEMBER 20, 2006
                             WASHINGTON, DC



                      COMMITTEE ON INDIAN AFFAIRS





                    U.S. GOVERNMENT PRINTING OFFICE

30-040 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001




                     JOHN McCAIN, Arizona, Chairman

              BYRON L. DORGAN, North Dakota, Vice Chairman

PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
CRAIG THOMAS, Wyoming                KENT CONRAD, North Dakota
GORDON SMITH, Oregon                 DANIEL K. AKAKA, Hawaii
LISA MURKOWSKI, Alaska               TIM JOHNSON, South Dakota
MICHAEL D. CRAPO, Idaho              MARIA CANTWELL, Washington
RICHARD BURR, North Carolina
TOM COBURN, M.D., Oklahoma

               John Tahsuda, III, Majority Staff Director

                Sara G. Garland, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Allen, W. Ron, chairman, Jamestown S'Klallam Tribe...........    15
    Benjamin, Melanie, chairwoman, Mille Lac Band Assembly.......    14
    Carlyle, Delia M., chairwoman, AK Chin Indian Community 
      Council....................................................     9
    Jourdain, Louis, chairman, Red Lake Band of Chippewa Indians 
      of Minnesota...............................................    11
    McCain, Hon. John, U.S. Senator from Arizona, chairman, 
      Committee on Indian Affairs................................     1
    Murkowski, Hon. Lisa, U.S. Senator from Alaska...............     2
    Reinfeld, Ken, acting director, Office of Self-Governance, 
      Department of the Interior.................................     3
    Skibine, George, acting deputy assistant secretary, Policy 
      and Economic Development for Indian Affairs, Department of 
      the Interior...............................................     3

                                Appendix

Prepared statements:
    Allen, W. Ron (with attachment)..............................    26
    Association of Alaska Housing Authorities....................    23
    Benjamin, Melanie (with attachment)..........................    73
    Carlyle, Delia M. (with attachment)..........................    81
    Jourdain, Louis (with attachment)............................    88
    Skibine, George..............................................   123


                         TRIBAL SELF-GOVERNANCE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 20, 2006


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m. in room 
485, Russell Senate Office Building, Hon. John McCain (chairman 
of the committee) presiding.
    Present: Senators McCain, Dorgan, and Murkowski.

   STATEMENT OF HON. JOHN McCAIN, U.S. SENATOR FROM ARIZONA, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Good morning. This morning the committee will 
receive testimony on the Department of the Interior's 
management of the Tribal Self-Governance Program. For many, it 
is hard to imagine that just a little over 30 years ago, the 
Federal Government was the sole provider of all or nearly all 
essential governmental services to Indian tribes and their 
members, including police, fire, education, and health care 
services in Indian country.
    In 1975, Congress enacted the Indian Self-Determination and 
Education Assistance Act, Public Law 93-638. Since then, 
Congress has increasingly authorized Indian tribes to manage 
Federal programs and assume control over their own affairs. 
Tribal self-governance aims to foster strong tribal governments 
and healthy reservation economies as mechanisms to further 
tribal government.
    Encouraged by the opportunities available under the act to 
operate and shape BIA programs to be more responsive to their 
community needs, Indian tribes across the country actively 
sought to contract and compact with the BIA. As more tribes 
assumed control over their own affairs, there has been a 
corresponding reduction in the Federal bureaucracy and an 
improvement in the quality of services delivered to tribal 
members.
    Recently, however, many tribes have been reluctant to enter 
into new contracts or to expand their current contracts and 
compacts. Some tribes have even begun to retrocede contracts as 
authorized under the act. This hearing will provide an 
opportunity for the department and invited tribal witnesses to 
offer their views and comments on these trends, and possible 
suggestions for resolving these challenges.
    The Chairman. Vice Chairman Dorgan is at a leadership 
meeting. He will be a few minutes late. In the meantime, 
Senator Murkowski?

   STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman, and good 
morning.
    There is little dispute within Indian country that the 
policy of self-determination first enunciated by President 
Nixon is probably one of the best, if not the single best thing 
that this Federal Government has ever done to help our Native 
people. Alaska tribes are 100 percent self-governance for 
Indian Health Services program and they compact BIA program. 
Although none of the witnesses today are from Alaska, so many 
of the concerns they are going to discuss are shared by Alaska 
self-governance tribes.
    The premise of self-determination is that Native people are 
stronger when they deliver Federal programs and services to 
their people, rather than rely on the Federal Government for 
service delivery. The quality of service delivery is higher 
when the people who deliver those services are directly 
accountable to tribal members. The opportunities for Native 
employment are greater.
    Before self-governance came to Alaska, there were very few 
opportunities for our Native institutions to employ returning 
graduates from college and post-graduate programs. The self-
governance institutions in Alaska have emerged as employers of 
choice for our Native young people.
    This committee wonders with good reason why self-governance 
is not more popular around the country, and we need look no 
further than the tribes which have enthusiastically taken on 
Federal responsibilities under their self-governance compacts, 
but have then discovered that the Federal Government is 
unwilling to live up to its responsibilities under those 
compacts.
    The lack of funding for contract support costs, which have 
been promised under the Indian Self-Determination Act and self-
governance compacts leads the list of concerns that I 
frequently hear from Alaska tribes. I would hope this morning 
each of the witnesses will address themselves to the question 
of whether inadequate contract support costs deterred tribes 
from entering into self-governance compacts.
    Now, we hear that BIA is giving their employees cost of 
living increases, but will not fund cost of living increases 
for tribal employees who perform the same functions under the 
self-governance compacts. While it is true that tribes can ask 
the Federal Government to take back the responsibility for 
delivering programs and services, self-governance is truly a 
matter of pride. Self-governance tribes will squeeze as much as 
they can out of a dollar, but more and more I am hearing that 
there is less and less to squeeze.
    I am pleased that the committee is turning its attention to 
the issues of self-governance tribes today. I am hopeful that 
this hearing will lay the groundwork for continued dialog, the 
110th Congress and I appreciate your initiative on this, Mr. 
Chairman.
    Thank you.
    The Chairman. Thank you.
    Mr. Skibine, please come sit down, the Acting Deputy 
Assistant Secretary of Policy and Economic Development for 
Indian Affairs at the U.S. Department of the Interior, and old 
friend of the committee. He is accompanied by?
    Mr. Skibine. I am accompanied by Ken Reinfeld, who is the 
Acting Director of the Office of Self-Governance.
    The Chairman. Good, thank you. Welcome. Please proceed.

STATEMENT OF GEORGE SKIBINE, ACTING DEPUTY ASSISTANT SECRETARY, 
POLICY AND ECONOMIC DEVELOPMENT FOR INDIAN AFFAIRS, DEPARTMENT 
OF THE INTERIOR, ACCOMPANIED BY KEN REINFELD, ACTING DIRECTOR, 
                   OFFICE OF SELF-GOVERNANCE

    Mr. Skibine. Thank you very much, Mr. Chairman, Senator 
Murkowski. I am pleased to be here today to present testimony 
on the oversight hearing on tribal self-governance.
    Essentially, I think my comments have been furnished to the 
committee and my statement will be made part of the record.
    The Chairman. Without objection.
    Mr. Skibine. Okay, thank you.
    The self-governance program started in 1991 with seven 
tribes for about approximately $27 million. In 2006, there were 
91 funding agreements providing services to 231 tribes for $300 
million. So the program has been extremely successful since its 
inception and the department strongly supports self-governance 
as an exercise of tribal sovereignty and self-determination.
    Its framework is one of administrative flexibility, which 
allows tribes to determine for themselves what are their 
program priorities. We have been essentially one of the success 
stories, I think, for the Administration since its inception.
    Indian tribes, of course, may negotiate a non-BIA funding 
agreements for programs which are of special geographical, 
cultural and historical significance to the tribe, and they are 
first negotiating funding agreements with the BIA or other 
Interior agencies for programs which are available to Indians 
because of their status as Indians. Each year, the department 
publishes a list of available programs for inclusion in funding 
agreements to be negotiated by Interior bureaus other than the 
BIA. Currently, there are funding agreements with the Bureau of 
Land Management, the Bureau of Reclamation, the National Park 
Service, the U.S. Fish and Wildlife Service, and the Office of 
Special Trustee. Overall, approximately 14 agreements.
    In addition, one of the policies of the Assistant Secretary 
for Indian Affairs is to hold quarterly meetings with the Self-
Governance Advisory Committee to discuss and resolve issues of 
mutual interest. We participate in yearly self-governance 
conferences at the tribes' invitation. So we are essentially 
involved with self-governance tribes on a consultation basis 
pretty much year-round, so that we are well aware to feel the 
pulse of the tribes when it comes to issues facing those tribes 
in the self-governance program.
    Finally, we are currently working with the title IV tribal 
self-governance task force to explore the need for amendments 
to title IV. The Secretary's office asked me this year to lead 
the department's team in this effort because there was some 
frustration on the parts of tribes and within our 
Administration over the length of time it was taking the 
department to move forward on the negotiations. So at this 
point, I hope that progress can be made in reaching mutually 
acceptable solutions to the issues raised by the proposed 
amendments. I am sure some of the tribal witnesses will testify 
on that issue.
    We did submit a list of issues we have with the proposed 
amendments. The tribes have responded and we are now looking 
forward to starting a negotiation meeting with the Tribal 
Advisory Committee and hopefully we can resolve most, if not 
all, of the issues that are of concern.
    Finally, I point out in my testimony that the department 
this year issued a national policy on contract support costs, 
and hopefully that policy will help alleviate some of the 
issues regarding contract support funding and having the money 
accessible to tribes.
    With that, I will complete my comments, and I am pleased to 
answer any questions you may have.
    Thank you.
    [Prepared statement of Mr. Skibine appears in appendix.]
    The Chairman. How many years have you been dealing with 
these issues?
    Mr. Skibine. Excuse me?
    The Chairman. How many years have you been dealing with 
Native American issues?
    Mr. Skibine. With Native American issues, myself? About 29 
years.
    The Chairman. About 29 years. And we saw when self-
determination and self-governance began that it was a great 
success, in 1975. Right? We saw more and more tribes taking 
advantage of self-governance contracting, because that is the 
whole theory of our treatment of Indian tribes, to allow them 
to self-govern as much as possible. By weaning themselves away 
from the BIA, IHS, and others, they were able to exercise much 
more self-governance. Right?
    Mr. Skibine. That is correct.
    The Chairman. How do you account for what appears to be a 
retrograde of tribes exercising self-governance and the lack of 
additional tribes seeking the ability to do so? It seems to fly 
in the face of everything that tribes seek and what we as a 
Nation want tribes to be able to do?
    Mr. Skibine. Mr. Chairman, I am, and I stand to be 
corrected by my acting director, but I am not aware that we are 
having a regression in the number of tribes that participate in 
the self-governance program. It is true that the number of 
tribes seeking self-governance contracts has slowed 
progressively down because ultimately we have reached a certain 
plateau and we are certainly open to have more tribes 
participate in self-governance. I think ultimately tribes, it 
is their decision of whether to enter into self-governance 
compacts or not.
    The Chairman. In the 1980's when I first started getting 
involved in Native American issues from a legislative 
standpoint, self-governance seemed to be the way that we 
thought all tribes were going to go. And now, many of the 
major, largest tribes have not done so. Would you like to 
comment?
    Mr. Reinfeld. Self-governance began in 1991. You are 
talking about, since 1975, the contracting, the 638 
contracting.
    The Chairman. Yes.
    Mr. Reinfeld. One of the requirements to get into self-
governance is to have been operating successfully a contract 
for 3 years. So contracting has diminished because some of 
these tribes, all of these tribes have come into self-
governance.
    The Chairman. So we don't have any problems?
    Mr. Reinfeld. I didn't say that.
    Mr. Skibine. I guess maybe we are not having, in the self-
governance, under title IV, we have seen a steady increase and 
no reduction in the number of tribes. There has been a leveling 
off of the number of tribes entering into self-governance 
compacts because many tribes, at their option, may decide that 
they want to continue having 638 contracts under title I of the 
act, or want direct services for whatever reason. It is really 
their decision.
    If we have a problem with tribes wanting to enter into 
self-governance and not doing so, then we need to hear from 
tribes that that is the case. I think we have not heard that.
    The Chairman. Okay. Here is what we are going to hear from 
the witnesses, that there are bureaucratic obstacles, and there 
are other impediments that discourage tribes. For example, the 
committee has been informed that the BIA is not releasing the 
full amount of funding appropriated for self-governance and 
that these administrative hold-backs account for as much as 5 
to 10 percent of the funds authorized. The Ak Chin people tell 
us that, and others.
    Why is that occurring? Why would we hold back 5 to 10 
percent of the funding?
    Mr. Skibine. I think that there may have been a hold-back 
because of congressional rescissions that were essentially held 
back against all of our budgets, whether central office of 
tribes, pending knowing exactly whether there was going to be 
some rescission. I am not all that familiar with the inner 
working of the budget-area issues. If you want, we can look and 
ask our Office of Administration to look into that.
    The Chairman. Well, we are also told the BIA sometimes 
doesn't distribute funding in a timely fashion. Is that 
legitimate?
    Mr. Skibine. Do you have any comments on that?
    Mr. Reinfeld. Yes; there are certain funds that do get to 
our office late in the fiscal year and don't get to the tribes.
    Mr. Skibine. But why is that?
    Mr. Reinfeld. Well, it depends on the particular program. 
Federal Highway funds is one of those. The methodology for 
contract support and welfare assistance gets to the tribe in 
two installments, so some of it gets later in the year when 
there is a better knowledge of the needs, the full need level 
that could be funded. Those are capped appropriations, so the 
tribe does not get 100 percent, but there is a pro-rata 
reduction to keep it within the appropriation limit.
    The Chairman. Let me get this straight. The tribe enters 
into a contract with somebody to provide a certain service and 
they agree to pay that contract to that organization, whatever 
it may be, only they don't get the full amount of money to pay 
it. Now, if I were a tribe, I would say to heck with that. I 
will just let the Government pay it.
    Mr. Reinfeld. The appropriation language does limit the 
amount that can be spent for the contract support and for the 
welfare assistance. So to keep within that appropriated level 
or ceiling, it is pro-rata reduced for all the tribes.
    The Chairman. The IHS tells us that approximately one-half 
of its budget goes to tribes through self-governance contracts 
and compacts. I think that in your written testimony, you tell 
us tribes have only contracted for $300 million in the BIA 
programs. It seems to me IHS has been more successful than the 
BIA. Is that a legitimate comment?
    Mr. Skibine. I am not familiar with the IHS program and 
funding, Mr. Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you.
    I don't know if I heard an answer there in the exchange 
with the Chairman, but in my opening statement I asked for the 
witnesses to address the question of whether or not inadequate 
contract support costs are deterring tribes from entering into 
self-governance compacts. I am not sure if you acknowledge that 
you agree there is a deterrent effect, if we are not adequately 
funding the contract support costs.
    Mr. Skibine. I am not sure if there is a deterrent for the 
tribe. They can address that better than I can. I think that 
what we have done this year to try to ameliorate the situation 
with contract support is adopt this national policy, for which 
we have the following objectives. It will stabilize funding to 
each tribe from year to year. It will expedite payments for 
each tribe, and it will respect the Act's prohibition against 
reducing contract amounts from one year to the next.
    The policy accomplishes these goals by requiring that, 
subject to appropriations, a tribe be paid the same amount it 
was paid in the preceding year. It allows the payment to be 
made very early in the fiscal year, and the only restriction is 
that the BIA must ensure that tribes do not receive more than 
100 percent of its total requirements.
    So the adoption of this policy certainly represents forward 
progress in the area of self-governance. We believe that it 
will significantly improve administrative flexibility and 
fiscal stability for tribes with funding agreements. To 
implement the funding aspect of the policy, the President's 
2007 budget included a 14-percent increase for contract support 
costs.
    Senator Murkowski. So do you consider this full funding for 
contract support?
    Mr. Skibine. I am not sure that it is or not.
    Do you have any comment on that?
    Mr. Reinfeld. It remains to be seen, according to what the 
needs are. It may not be. I do want to add that self-governance 
tribes receive contract support on the same basis as 
contracting tribes.
    Senator Murkowski. Did you mention, Mr. Skibine, in your 
initial comments, that there is a report due out on the 
contract support costs? You mentioned the national policy.
    Mr. Skibine. Yes; the national policy that we have adopted.
    Senator Murkowski. Okay. And that policy was adopted how 
long ago?
    Mr. Skibine. It was adopted this year.
    Senator Murkowski. So this next fiscal year will be the 
first time that it is actually in place?
    Mr. Skibine. That is correct.
    Senator Murkowski. Let me ask you about the PART 
requirement. OMB requires that Federal agencies justify their 
programs using the program assessment review tool. One of the 
concerns that we have heard from our tribes is that, well, 
self-governance is working for them. They have concerns that 
BIA is not collecting the data necessary to justify the 
program. Can you give me your thoughts on this? What are we 
doing to address this concern?
    Mr. Reinfeld. I think that the department is changing its 
strategic plan so that the data that is to be measured in that 
process, in the Government Performance and Results Act process 
[GPRA], is going to be more relevant to the tribes' activities.
    Senator Murkowski. It is not my understanding that it is 
relevancy so much as just the data is not being collected. Is 
there going to be an effort to step that up to make sure that 
we have the data that is needed for this review or required by 
this review?
    Mr. Reinfeld. We have put in the funding agreements 
provisions which tribes are agreeing to provide the Government 
Performance and Results Act, which is one of the first steps in 
the PART process. So yes, we have moved forward on that.
    Senator Murkowski. Thank you, Mr. Chairman.
    The Chairman. Let me just get this straight. The tribe 
enters into a contract for a certain service for a certain 
amount of money. But because of budgetary constraints or acts 
by the Appropriations Committee, there is not enough money, so 
they don't pay them as much as they originally contracted to 
pay. Is that correct?
    Mr. Reinfeld. The provision in the fund agreement says that 
it is just an estimate and we really don't know until the year 
goes on.
    The Chairman. What is just an estimate?
    Mr. Reinfeld. For the, like, welfare assistance. They don't 
know what their need is going to be on contract support. They 
don't know what their need is. So it is an estimated amount and 
it is going to be based on the indirect cost rate that is 
negotiated. So it is dependent on how many funds they get, and 
it is a certain percentage of that. Part of the funding is non-
recurring.
    The Chairman. That is interesting, but again, is it a fact 
that the tribe enters into a contract for certain services, and 
that contract, they are able to do that under self-governance. 
Right?
    Mr. Skibine. Yes.
    The Chairman. Okay. So they enter into that contract and 
they say they will pay them a certain amount of money to 
perform that service, but then because of appropriations 
cutbacks, you may not have sufficient money to allow them to 
pay the commitments under that contract. Is that correct?
    Mr. Skibine. Yes.
    The Chairman. Well, I wonder what would happen if we did 
that with the defense contractors? I mean, that would be 
interesting. It would be a fascinating experience.
    Mr. Reinfeld. We do have a provision in the funding 
agreements. We negotiate off the President's budget.
    The Chairman. Excuse me. But the tribes are negotiating off 
of what their needs are. They are contracting-out a certain 
service. Right?
    Mr. Reinfeld. We do adjust according to the appropriation, 
and that is a provision.
    The Chairman. Have you ever adjusted up?
    Mr. Reinfeld. Yes.
    The Chairman. You have?
    Mr. Reinfeld. If Congress appropriates more dollars for a 
program, yes, they get more dollars.
    The Chairman. So again, suppose that our defense 
contractors were dependent upon how much money the 
Appropriations Committee appropriates for a certain program, 
and I am sorry we didn't have enough, so we are not going to 
pay you completely. I mean, that doesn't make any sense.
    Mr. Reinfeld. We roll up their base funding into one number 
and then adjust it. There is also not only if the President's 
budget is greater than the appropriated amount, then we reduce 
it to the appropriation. But we also add the pay costs to it, 
so any increases. One time, there was TPA increase, tribal 
priority allocation increases, that were also added. So I mean, 
tribes are not only getting reductions, but they are getting 
increases just by the nature of how it is formulated.
    The Chairman. But is it true that some contracts are not 
given sufficient amount of money to fulfill the obligation 
under that contract? Is that true?
    Mr. Reinfeld. We have pro rata reduced contract support and 
that is true for that.
    The Chairman. For contract support?
    Mr. Reinfeld. Yes.
    The Chairman. If I were the guy doing the contracting, I 
would say, I am not sure I want to get into this contract if I 
could be paid 5 or 10 percent less than what I entered into. In 
fact, I think I would see you in court.
    Senator Dorgan has just arrived. Do you have anything?
    Senator Dorgan. Mr. Chairman, let me offer my regret that I 
was detained at another meeting, but thank you both for being 
here. I will defer questions.
    The Chairman. Well, thank you. We will get more into this, 
but really, Mr. Skibine, we have known each other for a long 
time. It just doesn't seem appropriate to me that as we 
encourage tribes to contract out for certain services, and they 
are making the decision to do it, and then they obviously 
should have guidance as to how much money they can contract out 
for. I am sure that that is the case. But if they can't pay 
their bills, then it seems to me that that is not a very 
attractive way of doing business, where if they would just rely 
on the Federal Government to do the contracting, the Federal 
Government very rarely does not pay its bills. So I can see why 
this might be a disincentive.
    Do you see my point?
    Mr. Skibine. Yes; I see your point. We will certainly look 
into that.
    The Chairman. All right. I would appreciate it. Thank you. 
It is good to see you all again. Thanks for coming.
    Mr. Skibine. Thank you very much.
    The Chairman. Our next panel is Delia M. Carlyle, 
chairwoman of the Ak Chin Indian Community; Floyd Jourdain, 
chairman of the Red Lake Band of Chippewas; Melanie Benjamin, 
chairwoman of the Mille Lacs Band Assembly; and Ron Allen, 
chairman of the Jamestown S'Klallam Tribe, an old friend of the 
committee.
    We will begin with Delia M. Carlyle, since she hails from 
the great State of Arizona, a prerogative of the Chair. 
[Laughter.]

   STATEMENT OF DELIA M. CARLYLE, CHAIRWOMAN, AK CHIN INDIAN 
                       COMMUNITY COUNCIL

    Ms. Carlyle. Good morning, Mr. Chairman, Mr. Vice Chairman, 
and Senator Murkowski.
    My name is Delia Carlyle and I am currently the chairman of 
the Ak Chin Indian Community.
    The Chairman. Located?
    Ms. Carlyle. Okay. I have that coming up, sir.
    The Chairman. Okay.
    Ms. Carlyle. Our reservation was established in May 1912 
and was originally comprised of over 47,000 acres. In the same 
year, 3 months later, our reservation was reduced by more than 
one-half, to its present-day size of just under 22,000 acres. 
My community is located approximately 35 miles south of 
Phoenix, AZ, and near my sister tribe of the Gila River Indian 
Reservation. We are a small, but proud tribe, of 767 enrolled 
members.
    Today, my community is being significantly impacted by 
hyper-growth in our area. We were once a small rural farming 
village, but today my area is one of the fastest growing 
suburbs of Phoenix, if not also in the United States. The 
explosive growth has also brought big-city problems to my 
community, which adversely affect our air, water, land, 
culture, traditions and our own tribal members.
    Thus the need for timely and full-funded self-governance 
programs is more important than ever to assist my community in 
providing necessary services for our tribal members. I am here 
today to speak about self-governance programs as they pertain 
to my community.
    At Ak Chin, we have social services, criminal investigator, 
education, roads maintenance and other consolidated tribal 
government programs which includes the courts, enrollment, 
adult education, Band adult education in our self-governance 
compact. In theory, self-governance was intended to allow an 
Indian tribe to consolidate all its BIA 638 program funds and 
reporting requirements into one self-governance compact. The 
primary objective of self-governance programs is to enable the 
tribe, not the BIA, to operate its own tribal programs.
    Unfortunately, self-governance programs have strayed away 
from their original intent to strengthen Indian self-
determination and self-sufficiency.
    One of our biggest problems for my tribe's self-governance 
program is that the BIA's Office of Self-Governance has become 
an additional layer of BIA bureaucracy. The problem is that our 
negotiator is not a local person. The individual is located 
over 1,000 miles away and three States away in Vancouver, WA. 
Thus, they do not know the local resources of our area.
    Another example is that my tribe may need a social worker, 
teacher, nurse, therapist, or police officer to help implement 
a self-governance program. Because there are no local resources 
through the OSG, my tribe has to turn to the BIA agency and/or 
regional office for administrative and technical support to 
implement and operate our self-governance programs. This 
creates several problems.
    First, there is no local BIA support because of the BIA's 
agency or regional office lost their technical support person, 
who was let go or reassigned when OSG took over the program 
administration. Furthermore, tribes may be stuck in the middle 
of an OSG and agency regional office turf battle. At times, 
tribes pay the price for BIA internal strife when an agency 
office loses personnel and funding to the OSG. The result is 
that the tribe gets the bureaucratic runaround instead of its 
questions answered.
    In addition, technical assistance funding is practically 
gone. This hurts tribal program development because of the lack 
of BIA program technical assistance and support. This is 
especially true for navigating through the complex funding 
formula process.
    Besides a lack of adequate funding for tribal programs, a 
huge problem is getting the available self-governance funding 
drawn down to my tribe. These funds are already authorized and 
appropriated, but my tribe gets excuse after excuse from OSG 
that the BIA central office has not forwarded the funds.
    For example, in my case, my tribe has not yet received our 
fiscal year 2004 reservation roads funding. Because of my 
area's hyper-growth, roadway infrastructure is a major need. 
From 2004 to the present, we were promised almost $200,000 for 
road construction from OSG. Based on that information, we 
planned and negotiated, along with State and local county 
officials, for a joint roadway project to help alleviate the 
mass congestion of traffic going through the main road in my 
village. The road was built, but the funding has yet to come.
    Therefore, my tribe had to cover the funding gap, which 
meant that other tribal programs such as meals services to our 
elders, as well as budget cuts to early childhood development 
programs, as examples, were used to make up for the self-
governance shortfall.
    Finally, we have recently been informed by OSG that the 
funding should be available soon, but the amount is less than 
originally promised.
    Another glaring problem is the expanded use of 
administrative hold-backs by the BIA. In short, the BIA central 
office is not releasing the full amount of authorized and 
appropriated funds for tribes, and holding back about 5 percent 
to 10 percent of tribally earmarked funds. This is a direct 
violation of section 405 of the Interior Appropriations Act, 
which requires any hold-backs to be approved by the 
Appropriations Committee. To this date, there has been no such 
approval.
    In some cases, the BIA claims that hurricane relief or 
Cobell litigation fees consumed the funds. In addition, at 
times we have also been told by staff within the BIA that 
instead of the funds going to the tribes, those funds were 
returned to the Treasury. In any case, the funds are not going 
to tribal programs. As a result, tribes have to cut other much-
needed tribal programs to make up for the hold-backs.
    We offer the following recommendations to hopefully resolve 
some of these problems. First, positive impact comes simply 
from the BIA following Federal law and not enabling 
administrative hold-backs. It seems that streamlining the 
funding process would be another good start. There are still 
too many bureaucratic layers involved. It should not take over 
2 years to have funds drawn down to my tribe or any other 
tribe. We rely on the promised self-governance funding and 
incorporate those funds into our annual budgets. If we do not 
receive those funds, we have to make cuts from other important 
tribal programs, which impact our elders, youth, and all our 
tribal members.
    In addition, we respectfully recommend having local 
negotiators, limiting the number of tribes per negotiator, and 
rewarding good negotiators, while getting rid of the 
ineffective ones.
    In conclusion, Mr. Chairman and committee members, I would 
like to thank all of you for this opportunity. Our community 
has high hopes that this committee will address the problems of 
self-governance and we look forward to working with you toward 
solutions.
    Thank you.
    [Prepared statement of Ms. Carlyle appears in appendix.]
    The Chairman. Thank you very much.
    Floyd Jourdain? Is that the proper pronunciation, sir?
    Mr. Jourdain. Yes.
    The Chairman. Thank you. Welcome.
    Mr. Jourdain. And I agree, Arizona is a beautiful State. 
[Laughter.]
    The Chairman. Thank you.

 STATEMENT OF FLOYD JOURDAIN, Jr., CHAIRMAN, RED LAKE BAND OF 
                 CHIPPEWA INDIANS OF MINNESOTA

    Mr. Jourdain. Mr. Chairman, Mr. Vice Chairman, members of 
the committee, good morning. Thank you for this opportunity to 
present our issue today and provide the testimony on behalf of 
the Red Lake Band of Chippewa Indians in Northwestern 
Minnesota.
    I will focus my remarks on the harsh impacts on my tribe 
and on other tribes that have been caused by the failure of the 
BIA, the OMB and the Congress to fully fund pay cost increases 
for self-governance programs. As an aside, I want to add that 
the Red Lake Band supports the bootstrap amendment that Chief 
Executive Benjamin and Chairman Allen have testified upon, and 
having title V authority applied to our title IV agreement 
would help Red Lake in our ongoing negotiations with the BIA.
    To my main point, under Public Law 93-638, tribal employees 
do what Federal employees previously did for tribes. Congress 
has regularly encouraged the Administration to treat 93-638 
tribal employees the same as BIA employees are treated with 
respect to pay cost increases and other fixed costs. Because 
Congress and the Administration have failed to fully fund these 
costs, Indian tribes have been forced to either absorb the pay 
cost increases by reducing services, or to deny tribal 
employees the pay cost increases received by their Federal 
colleagues.
    As a result, the House Appropriations Subcommittee wrote in 
its fiscal year 2005 Interior report

    Absorption of costs associated with the Federal pay 
increases and other unfunded fixed costs cannot continue 
indefinitely without further eroding core program capabilities.

    Over the past 3 years, the Indian programs have absorbed 
over $500 million in unfunded costs. Reducing Indian services 
by $500 million every 3 years in order to pay our tribal 
employees their basic cost of living increases is not a choice 
tribes like Red Lake can live with.
    My written testimony sets out in detail the painful funding 
cuts that the Red Lake Band has endured in the past 5 years. I 
will briefly summarize these cuts. For fiscal year 2006, we 
timely submitted our pay cost worksheet to BIA. If fully 
funded, that would have given us an increase of over $260,000. 
The President requested and the Congress enacted fully funded 
pay costs for the Department of the Interior in fiscal year 
2006, but BIA gave us only $97,000.
    Why was Red Lake shortchanged $153,000? It turns out BIA 
did not collect some pay cost worksheets from other tribes when 
OMB was calculating a totally funded Interior need. So BIA 
decided to distribute erroneously smaller amounts pro rata 
among other tribes. Once again, tribes like Red Lake had to pay 
for BIA's mistakes.
    For fiscal year 2002, there apparently was such acrimony 
between the BIA budget office and Interior's Office of Self-
Governance that when OSG missed a deadline for submitting pay 
cost information on self-governance tribes to BIA, $3.3 million 
was not included in the request that went to OMB and the 
Congress. When we learned about this mistake, we pleaded with 
the Congress to correct it. The House added $3.3 million, but 
at conference with the Senate, that amount was halved. So BIA 
pro-rated the shortfall to all tribes. Once again, tribes like 
Red Lake had to pay for Interior's mistakes.
    For fiscal year 2003, 2004, and 2005, Red Lake believes the 
BIA has miscalculated Red Lake's proper share of the limited 
pay cost funding that was requested and appropriated. We have 
repeatedly asked BIA to report to us how it calculated our 
share for those years. They have repeatedly failed to give us 
the report. We even made BIA promise in our legally binding 
self-governance funding agreement last year to provide us with 
this information by April 1 of this year. The date has come and 
gone without the BIA report.
    Mr. Chairman, the BIA's neglect and disinterest in self-
governance borders on hostility because we insist on being 
dealt with fairly and honestly. Must a tribe like Red Lake sue 
the Secretary just to get something done? This year marks Red 
Lake's 10th anniversary under self-governance, but is there 
cause for celebration?
    Certainly, there have been some good things that have come 
under self-governance, and I describe a few of them in my 
written testimony. Yet the fact is that prior to fiscal year 
1996, the Red Lake Band enjoyed relatively stable funding for 
our tribal priority programs, and even saw an occasional 
increase for the cost of inflation.
    Then, beginning with the devastating $100 million cut to 
the TPA in fiscal year 1996 when Senator Gorton was an 
Appropriations Chairman, Red Lake saw in that year alone a 
sudden reduction of 16 percent to 18 percent in funding for our 
core service programs, including law enforcement, fire 
protection, social services and natural resources. That was the 
year we began self-governance and we have never recovered, what 
with the mandatory and targeted rescissions and pay cost cuts.
    No matter how efficient we have become at spending our 
funds as a result of self-governance authority, we have gone 
backward because of all the funding cuts and BIA 
miscalculations of our pay cost increases. Core service funding 
is less today than 1 decade ago. Contract support has been 
chronically inadequate and uncontrollable fixed costs have not 
been funded.
    It might seem easiest for some tribes to simply revert back 
to BIA direct service. At least the BIA service providers would 
get their annual and step pay increases. But is that really in 
our best interest? Red Lake does not think so. We want to 
continue on the self-governance path, but we will need your 
continued help, Mr. Chairman, and that of this committee, to 
ensure that self-governance tribes are treated fairly by the 
BIA, by Interior's Budget Office, by OMB and by the 
appropriators.
    To that end, we have a couple of requests we have outlined 
in my written testimony. We suggest a series of questions for 
you to consider asking the department, and some of them you 
have asked today; a letter to trigger a GAO investigation of 
the pay cost debacles at Interior; and a request that you 
demand that the department immediately provide the Red Lake 
Band with the pay cost report promised to us by April 1, 2006; 
and provide us with the funds that should have been given us in 
prior years and add them to our base funding in future years. 
We need your help and we need the help of this committee.
    In closing, Mr. Chairman, the failure to fully fund tribes' 
uncontrollable costs, especially pay costs, during the last 5 
fiscal years, has caused serious and irreparable harm to tribal 
core service programs. Errors, omissions, and miscalculations 
on the part of the BIA have compounded this problem. These 
matters are clearly a disincentive for tribes to continue 
participating in or to expand their participation in self-
governance.
    On behalf of the Red Lake Band and tribes across the 
country, thank you for asking me to testify today. I appreciate 
the opportunity and for your assistance in drawing attention to 
the matters that I have presented today.
    Thank you.
    [Prepared statement of Mr. Jourdain appears in appendix.]
    The Chairman. Thank you very much.
    Chairwoman Benjamin, welcome.

  STATEMENT OF MELANIE BENJAMIN, CHAIRWOMAN, MILLE LACS BAND 
                            ASSEMBLY

    Ms. Benjamin. Good morning, Mr. Chairman and members of the 
committee. You have my written statement, so I will be brief. I 
also want to say Arizona is a beautiful State. [Laughter.]
    The Chairman. Thank you.
    Ms. Benjamin. The Mille Lacs Band of Ojibwe has been among 
a handful of Indian tribes that have----
    The Chairman. Senator Dorgan says that is not a requirement 
for witnesses. [Laughter.]
    Ms. Benjamin. The Mille Lacs of Ojibwe has been among a 
handful of Indian tribes that have devoted countless hours over 
the past 18 years to the task of shaping Federal-tribal self-
governance laws, regulations, and practice. Our former tribal 
Chairman Arthur Gahbow was among the 10 tribal leaders who met 
in Kansas City under the name of the Alliance of American 
Indian Leaders in 1988. They were led by Roger Jourdain and 
Wendell Chino. As a group, they first proposed the concept of 
self-governance.
    Our goal has always been to expand tribal participation in 
self-governance. But to do that, we must remove the obstacles. 
It is no secret that generally speaking the Federal 
bureaucracies are threatened by any expansion of tribal self-
governance because it results in a shift of power, money and 
job away from the Federal agencies and into tribal government 
employees.
    From the beginning, our tribal allies in Congress such as 
you, Mr. Chairman, have had to push self-governance laws 
without support from the Administration. Today, we are here to 
report that after 6 years, we have been unable to persuade the 
Department of the Interior to support detailed reform 
legislation. We only want to bring the title IV BIA self-
governance statute into conformity with the title V Indian 
Health Service self-governance statute.
    So we ask that, as an interim measure, the Congress pass a 
simple technical bootstrap amendment. We realize that these are 
the closing days of Congress, yet this amendment is so 
important. It will provide interim relief to expand tribal 
self-governance at BIA. The bootstrap amendment would simply 
capture the improvements made by Congress in 2000 regarding 
Indian Health Service and extend them to the BIA and Interior 
at the option of the tribes.
    Put another way, it would allow self-governance tribes to 
apply other provisions of Public Law 93-638, especially title 
V, to their BIA self-governance agreement. The bootstrap would 
immediately make self-governance more attractive to tribes 
because it will, first, increase tribal flexibility in the 
administration of our programs; second, produce cost savings by 
allowing tribes to conform our BIA-funded administrative 
practices to our Indian Health Service-funded administrative 
practices; third, expand eligibility and simplify the 
application process; fourth, shorten negotiations by applying 
time lines for decisions in dispute resolution; and fifth, 
expand investment authority over advanced funds.
    It is a very cautious approach to reform because it would 
apply to only existing law and authority from title V to 
Interior self-governance agreements. This is a law that has 
been working well for the past 6 years at Indian Health 
Service. It is time to allow tribes and BIA self-governance 
compacts to take advantage of these improvements.
    From its beginning days, the goal of tribal self-governance 
has been to allow Indian tribes to redesign programs to better 
meet the needs of our people and to allow us to prioritize the 
funds ourselves to address the needs with administrative 
efficiency. The bootstrap amendment would help us achieve these 
goals.
    On behalf of the Mille Lacs Band of Ojibwe, I thank you, 
Mr. Chairman, for considering it and urge its swift passage.
    Thank you.
    [Prepared statement of Ms. Benjamin appears in appendix.]
    The Chairman. Thank you very much.
    Ron Allen, welcome back.

 STATEMENT OF W. RON ALLEN, CHAIRMAN, JAMESTOWN S'KLALLAM TRIBE

    Mr. Allen. Thank you, Mr. Chairman. It is always an honor 
to be here before you and this distinguished body, so I am very 
honored to be here. So I thank you and the vice chairman for 
inviting me.
    For the record, I am Ron Allen, chairman for the Jamestown 
S'Klallam Tribe. You have my testimony, and I am submitting it 
for the record.
    The Chairman. The written statement of all the witnesses 
will be made a part of the record.
    Mr. Allen. Thank you, sir.
    Senator Dorgan. Mr. Allen, would you like to tell us your 
thoughts about Arizona? [Laughter.]
    The Chairman. Or North Dakota.
    Mr. Allen. It is hot. [Laughter.]
    I am from the Northwest. We like it a little cooler up 
there, but not as cool as it gets in North Dakota in the 
wintertime, mind you.
    Anyhow, I am very honored to be here with my colleagues 
with regard to self-governance. Self-governance, as Melanie had 
pointed out, has been advancing since 1988. I am very honored 
to have been a part of that process. I remember Chairman Roger 
Jourdain, Chairman Art Gahbow, and Joe DeLaCruz from the 
Quinault Nation, Wendell Chino and Alex Lindeman from the 
Rosebud, and Ed Thomas from Tlingit-Haida.
    There were 10 of us who wanted to move this agenda forward. 
I am very, very delighted that we have been moving forward, but 
we are here before you to talk about why it has slowed down, 
why we are now entering a new phase of struggles with the 
Administration and with the advancement of this very 
progressive concept of empowering tribes. That is what self-
governance and self-determination is all about. It is 
empowering tribes to take care of ourselves, because we can be 
more efficient with the limited Federal dollars that are made 
available for our people than any other system that exists. We 
have shown that.
    We have written books and have countless examples of how 
efficient that we can be. You have seen it move forward from 
1988 to the enactment of title IV in 1994 and enactment of 
title V in 2000. As Melanie Benjamin has advocated, we are 
looking forward to another step progressively forward.
    You have asked some interesting questions earlier with the 
Administration. Why are we slowing down? What is going on? What 
is the problem? Chairwoman Carlyle talked about her experiences 
down in Arizona. Quite frankly, you have an Administration who 
is digging in their heels. Self-governance moved forward very 
progressively and it has been shown to be quite successful. But 
now you have a bureaucracy that really does not want to let go. 
And that has been always the historical challenge, to let go of 
Indian affairs, to let us control our own destiny. And they 
don't want to let go.
    So you have a concept out there called inherent Federal 
function. You have a concept called residual funding that goes 
with inherent Federal function, that only the Federal 
Government can do, that quote/unquote, the tribes cannot do. 
The question is, now, is that starting to grow? The answer is 
yes. They are starting to come up with new ways of couching 
what they can do and only they can do, and we can't do, and 
they need more resources.
    So when you look at available dollars that are made 
available to the tribe, they are becoming less and less and 
less. So consequently, tribes who are interested are looking at 
this picture and saying, there is a problem with this picture 
because you are not letting go of the system. The way it was 
conceptually back when we began this process in the 1990's was 
that as we took over more of the Federal system, you should see 
a marked diminishment of the Federal system because their role 
has changed in terms of their liaison with the Congress, with 
regard to what the tribe is doing with those dollars. So those 
dollars should reciprocate as the system adjusts down, and the 
tribes grow in their strength, and we report to you the 
successes of what we are achieving.
    That was what was happening, and now it is starting to slow 
down. We came before you after 1994 and advocated an adjustment 
to title IV when title V got enacted. We were opposing some 
significant comprehensive adjustment to move it forward beyond 
the BIA and into the Department of the Interior, all agencies 
into the Department of the Interior.
    Remember back when this thing started in 1988 when you did 
your investigation. You said, well, we made a big mistake. We 
are doing a terrible job. Let's talk about a whole new 
Federalism concepts. Let's take our Federal dollars and turn it 
over to the tribe. We said we liked the concept, but we want to 
do it on our own terms. We want to make sure that you are not 
relinquishing your legal liabilities and obligations to Indian 
country, so it had to be on our terms.
    If we are going to move that concept forward, there has to 
be continuity. There has to be consistency on how these Federal 
Governments and agencies are administering this concept. You 
don't have consistency. So when you look at the BIA, 231 
tribes, $300 million, well, what is that? You have about a $2-
billion BIA budget. That is about 15 percent, if my math is 
right. If you looked at the IHS, you have around 306 tribes and 
you probably have around $900 million. So we figure that it is 
somewhere in the neighborhood of 40 percent of its budget. I 
think the number is around $2.4 billion, something like that.
    The issue is, why is it working over there? Well, you have 
more flexibility. They have empowered tribes. Congress has made 
it clear what tribes' discretion and authority is. So we have 
more authority, so they have less ability legally to try to 
restrict the tribes. We still have problems over there. You do 
need to know we have some issues over there. Why is it we only 
have 40 percent of that money? We should have a whole lot more 
of that money. More tribes should be taking over those 
resources. Under BIA, you have talked about a number of issues 
that are out there.
    So we think that the bootstrap proposal for title V into 
title IV helps us move and break the logjams. We want a more 
comprehensive piece of legislation, but we need a progressive 
first step to send a clear message from the Congress to the 
Administration.
    Thank you, Mr. Chairman.
    [Prepared statement of Mr. Allen appears in appendix.]
    The Chairman. Thank you very much.
    Just briefly, Chairwoman Carlyle, because I think this is a 
concrete example of what we are wrestling here, unless I am 
missing something. You made an agreement with the State of 
Arizona to have a road through the reservation. Is that right?
    Ms. Carlyle. There is a road. It is called Ralston Road, 
which borders the county and our side. It borders Ak Chin.
    The Chairman. So this road was an agreement between you and 
the county?
    Ms. Carlyle. Right.
    The Chairman. And did you seek permission or inform the BIA 
that you were going to enter into this contract?
    Ms. Carlyle. Yes; we did, Mr. Chairman.
    The Chairman. And were you assured that you would get the 
money for it?
    Ms. Carlyle. We were told that the dollar amount given for 
those years is what we would be getting, the projections. I 
have to admit one was a projection. And so based on that, we 
moved forward with the road, again, to alleviate the congestion 
going through what is known as Farrell Road, which is the main 
road through the village area.
    The Chairman. So did you have that in writing?
    Ms. Carlyle. Yes; we have documents. We have an agreement 
about the moneys to be received.
    The Chairman. Send a copy of those documents to the 
committee, would you?
    Ms. Carlyle. I sure will.
    The Chairman. And then when it came time to pay?
    Ms. Carlyle. We are still waiting to get paid.
    The Chairman. But you had to go ahead and pay, along with 
the county, for the construction of the road, so you had to 
take it out of tribal funds?
    Ms. Carlyle. Yes; we did. It was a commitment. It was on 
schedule, which apparently the funding cycle for the bureau 
does not meet the schedule, obviously, with our budget. So we 
went under the promise that we would be reimbursed for those 
costs.
    The Chairman. And how long has that been?
    Ms. Carlyle. We are still waiting 2004. We got our first 
dollar numbers for the roads project, and just recently as of 
yesterday I called back home to see what the status was and the 
remark was still the same. It is at the area office waiting for 
a draw-down. I said, well, we would have withdrawn those moneys 
2 years ago, and we are still waiting. That is the excuse we 
are getting. It is there in the central office. All it needs is 
a signature, but we are just not able to draw down the funds.
    The Chairman. Well, then if I were you and the tribal 
council, I would say next time to the county, deal directly 
with the BIA. Maybe you will get all your money that way.
    Ms. Carlyle. Well, hopefully the full amount, because we 
were notified that what we were told we were going to receive 
was less than what now they say we will be getting.
    The Chairman. So even if you receive the money, it is going 
to be less than what you were told.
    Ms. Carlyle. Exactly.
    The Chairman. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, we decided to hold this 
hearing because we wanted to understand why the tribal self-
governance program was not working particularly well, why 
tribes were not coming to this program and making themselves 
available to participate.
    I think when I hear the testimony today, I think I 
understand why that is the case. I don't think this is a 
mystery. Nobody is going to want to sign up to a program that 
puts you in this position, where you have certain requirements, 
contractual expectations that are not met.
    So I think we have learned what we intended to learn or 
what we had hoped to learn today. What is going on here? Why 
are more tribes not coming to this program? I think I now know, 
and I think it gives us some responsibility here on the 
committee, and opportunity as well to begin to address these 
issues. Because I think the program, if run properly, can hold 
out some real promise. I think self-governance for many tribes 
is attractive, makes a lot of sense, gives them opportunities 
to make their own decisions about their own priorities. All of 
that makes great sense. But it doesn't make sense to sign up to 
something that won't work.
    So I think this has been very helpful to me to hear the 
testimony that you all have submitted. I appreciate very much 
your coming to Washington, DC, and Arizona is a wonderful 
place. [Laughter.]
    And so is North Dakota. I am sorry, Mr. Chairman.
    The Chairman. North Dakota is wonderful. [Laughter.]
    Could I ask you all, since you are on the receiving end, if 
you would correspond with us to tell us what you think the fix 
is. Is it legislative? Is it a mandate from Congress that full 
compliance with contracts that were freely entered into with 
the approval of the BIA have to be honored? Is that one of the 
answers, Ron?
    Mr. Allen. We believe that if we are going to move it 
forward like we did in the 1990's, Congress has to send a clear 
message back to the Administration that we intended for the 
tribes to be empowered, to address their own affairs. You are 
slowing it down. So get back to work and re-empower the tribes. 
That message has to come from the Congress.
    The Chairman. Chairwoman Benjamin, do you communicate with 
the BIA these concerns that you have?
    Ms. Benjamin. Yes; we have ongoing dialog. When we have our 
regional meetings and we have the regional reps in the 
meetings, we have discussions. I think Mille Lacs is in a 
different position because the funding is short. We are 
shortchanged and we are in a position where we use our other 
revenue streams to kind of balance that out, but that still 
doesn't make it right. And also, there are a lot of other 
tribes across the country that are not in that same situation.
    The Chairman. Chairman Jourdain, overall do you still 
support strongly the concept of self-governance?
    Mr. Jourdain. Yes; we do. We feel self-governance is a very 
positive thing, and the tribe would like to continue on with 
self-governance. We are hurting as a result of the cuts and the 
pay cost is really an issue for us. It is hard for us to 
compete when, say, for instance our law enforcement officers 
are being paid one-third less than BIA cops. They go train. 
They get whatever credentials they need, and then they leave to 
go somewhere else to work for higher pay.
    We want to carryout those programs. And us, just like the 
other bands represented here, have to pull money from other 
areas in order to cover those shortfalls. We do not have a lot 
of resources tribally to do that.
    The Chairman. Could I end by asking a question unrelated to 
this hearing, that continues to be of great concern to all 
Americans and to you. I begin with you, Chairwoman Benjamin. 
How serious is the methamphetamine problem?
    Ms. Benjamin. We are starting to see that rise on our 
reservation. We are about 100 miles from the Minneapolis-St. 
Paul area, and we are the southern-most Ojibwe Tribe in the 
State of Minnesota. There area those entities that are in the 
cities, we call it the cities, Minneapolis-St. Paul, that then 
travel north. We understand that there is a strategic plan from 
some of the drug cartels to come to the reservations, and even 
to marry tribal members so they have a foot in there to be able 
to start that new clientele, if you will.
    For the Mille Lacs Band, we are working very hard to make 
sure that we get a hold of this. Law enforcement is one issue 
that is very important, but also the other important issue is 
why are people turning to this as their escape. We know that we 
have a lot of depressed people in our reservations, based on 
generations of oppression. So we want to go from that, and find 
that peace, and help our members find the peace within 
themselves so they don't turn to those kinds of releases.
    So we do that in terms of making sure that we really 
enhance our cultural opportunity for them, to bring them back 
to the ceremonies and make sure that we have adequate housing, 
education, and find jobs. One of the things that we did just 
recently is that there are a lot of folks who for some reason 
are not able to work in the economic development normal sense 
of work. So they are unemployed and look at some of the welfare 
benefits.
    So what we did is we now have what we call a cultural labor 
pool, where we are allowing our tribal members to go out and do 
cultural related things for their families, for instance 
fishing, wild rice, harvesting maple syrup, and that would be 
their job. We will pay them to do this job, because is does 
help their families. Any of those harvesting activities that 
they do, and they have enough for their families and they want 
to sell the other portion of that, we allow them to do that to 
enhance that income for their families.
    So we are trying to look at new ways and innovative ways to 
make sure that our tribal members have the opportunity to be 
successful. So we look at that in new ways, and hopefully 
educate our youth of the dangers of that meth.
    The Chairman. Chairman Jourdain.
    Mr. Jourdain. We are one of the more remote tribes in 
Minnesota, so we don't have a lot of exposure to the 
methamphetamine, although it does exist on our reservation. We 
are battling a crack cocaine epidemic on our reservation. But 
because minimally we have not seen a lot of the methamphetamine 
abuse on the reservation, at this point even one instance we 
take very, very seriously. We are concerned about 
methamphetamine in Indian country and the State of Minnesota, 
and we are talking to the other tribes as much as we possibly 
can to network, along with local and State and Federal 
authorities to see what we can do to curb drug trafficking and 
methamphetamine abuse in Indian country.
    The Chairman. Chairwoman Carlyle.
    Ms. Carlyle. Senator, you know, I talked about hyper-growth 
in our area. We were just that small little rural community of 
about 1,000 people or so, including the town of Maricopa. I 
believe we are up to 18,000 plus currently, and in a few more 
years they are projecting 100,000 to 130,000 residents in our 
area.
    Chairman Ron Allen was just out in our area and saw the 
hyper-growth happening around us. Because of that, we feel that 
the meth issue is there. However, unfortunately, it seems to be 
well hidden in our small community. Our law enforcement people 
have taken steps to combat this, along with council members and 
other community members.
    Unfortunately again, too, is that we seem to be a traffic 
stop area from the south. Those who are drug-trafficking from 
the south, and Maricopa seems to be for some reason the local 
stop. We are still far enough from Phoenix, but still close by, 
if you can see what I mean about exchanges in that area to off 
to different ways. The O'Odham reservation has also expressed 
that concern about their boundaries, the border issue.
    Meth, unfortunately, as we all know, is a growing problem 
and its effects, however, have been real devastating. We are 
not sure if meth was related to the suicide of three beautiful 
young ladies, two were 13 and one was 14, all within a span of 
three months. They killed themselves. So we do what we have to 
do and we are coming together as a community because it is not 
the council's problem. It not the PD's. It is not the housing. 
It is all our problem to find a solution to do away with this 
horrible, horrible, I refer it to as a disease.
    The Chairman. Thank you very much.
    Chairman Allen.
    Mr. Allen. Mr. Chairman, in my community meth is a serious 
problem. It is a serious problem in Indian country. Our 
president at NCAI has declared war on meth in Indian country 
because it is so devastating to our people and to our families 
and to our community.
    We are experiencing it in my small community. The thing 
that is most disturbing is the limited amount of resources 
available to fight it, to educate our people like my colleagues 
have commented, and to provide them better opportunities. There 
are very little dollars, and so we have to use precious hard 
dollars to fight that fight. But it is out there. It is the 
ugliest drug I have ever known, and we have a lot of people 
getting exposed to it. Worse yet is the devastation it causes 
their families and our communities.
    The Chairman. I thank the witnesses. We will continue to 
make that one of the highest priorities that we can, and our 
sympathy to the families, Chairman Carlyle, of that tragic 
incident.
    I thank you all very much. This hearing is adjourned.
    [Whereupon, at 10:40 a.m. the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of the Association of Alaska Housing Authorities

    The Association of Alaska Housing Authorities [AAHA] is pleased to 
have this opportunity to submit testimony for the record at this 
important hearing.
    AAHA's membership consists of the 13 statutorily created Alaska 
Native regional housing authorities which collectively provide services 
on behalf of approximately two-thirds of the tribes in the State, with 
combined annual budgets of just over $100 million. Alaska's regional 
housing authorities (in partnership with the Alaska Housing Finance 
Corporation which also holds a seat on the AAHA Board) serve residents 
in every part of Alaska--in larger urban cities, in small towns and in 
Alaska's rural, ``bush''communities. The regional housing authorities 
have built well over 6,000 housing units since their inception in 1971 
and are the primary builders of new housing in rural Alaska.
    Although we realize your focus is primarily on tribal self-
governance programs administered pursuant to titles IV and V of the 
Indian Self-Determination and Education Assistance Act of 1975 [ISDEAA] 
[Public Law 93-638, as amended], we know the committee is well aware of 
the fact that housing is a critical--and sadly lacking--basic need 
throughout Indian country and that the policies and issues under 
consideration by the committee have direct cross-over implications and 
application to the programs AAHA and other tribes and tribal 
organizations administer through HUD pursuant to the Native American 
Housing Assistance and Self-Determination Act of 1996 [Public Law 104-
330, as amended] [NAHASDA].
    As the committee members consider the future of tribal self-
governance and the testimony presented by the various tribal leaders 
presenting at this hearing, we respectfully request that a brief look 
backward to the genesis of self-determination and its evolution into 
self-governance may be instructive.
    In 1970, President Nixon gave his historic ``Special Message to the 
Congress on Indian Affairs.'' In his message he stated:
        For years we talked about encouraging Indians to exercise 
        greater self-determination, but our progress has never been 
        commensurate with our promises. Part of the reason for this 
        situation has been the threat of termination. But another 
        reason is the fact that when a decision is made as to whether a 
        Federal program will be turned over to Indian administration, 
        it is the Federal authorities and not the Indian people who 
        finally make that decision.
        This situation should be reversed. In my judgment, it should be 
        up to the Indian tribe to determine whether it is willing to 
        assume administrative responsibility for a service program 
        which is presently administered by a Federal agency. [Emphasis 
        added.]
    In response, Congress passed the ISDEAAM in 1975, giving tribes at 
least a limited level of the decisionmaking authority President Nixon 
had advocated for. Tribal self-governance, which was passed as a 
demonstration project in 1988 and made permanent in 1994, was of course 
an extension, or evolution, of this self-determination philosophy.
    It is well to remember however, that as tribal leaders formulated 
and advanced the tribal governance concept, from its infancy through 
the successful passage of the concept into law, tribal leaders and many 
Members of Congress had a much broader vision of self-governance than 
that which has been realized to date.
    When self-governance was made permanent in 1994 [12 years ago!], 
the House report which accompanied the legislation contained a 
discussion of concerns held by the House Resources Committee over 
resistance within the Indian Health Service to certain aspects of self-
Governance implementation. As the report stated:
        This resistance is due in large part to the misapprehension 
        that tribal self-governance is a temporary project. Tribal 
        self-governance, as reflected in this legislation, will be a 
        permanent program and it is the committee's intent to expand 
        tribal self-governance to include each Department of the 
        Federal Government. [Emphasis added.]
    Cong. Rec., at H11141, October 6, 1994.
    AAHA is hopeful that the Senate Indian Affairs Committee shares the 
views expressed by the House Resources Committee. We contend that 
expanding the Self-Governance model to HUD and the Indian/Alaska Native 
programs which it administers pursuant to NAHASDA is a logical and much 
overdue next step in this evolutionary process.
    In fact, it should be noted that Congress has already expressed its 
intent to move in this direction by passing the NAHASDA amendments of 
2002 [Public Law 107-292], which included the following new provision:
    ``Section 202. ``Eligible Housing Activities.
        (8) SELF-DETERMINATION ACT DEMONSTRATION PROJECT.--(A) IN 
        GENERAL.--Consistent with the provisions of the Indian Self-
        Determination and Education Assistance Act [25 U.S.C. 450 et 
        seq.], the Secretary shall conduct and submit to Congress a 
        study of the feasibility of establishing a demonstration 
        project in which Indian tribes and tribal organizations are 
        authorized to receive assistance in a manner that maximizes 
        tribal authority and decisionmaking in the design and 
        implementation of Federal housing and related activity funding. 
        (B) STUDY.--Not later than 1 year after the date of enactment 
        of the Native American Housing Assistance and Self-
        Determination Reauthorization Act of 2002, the Secretary shall 
        submit the study conducted under subparagraph (A) to the 
        Committee on Banking, Housing, and Urban Affairs and the 
        Committee on Indian Affairs of the Senate, and the Committee on 
        Financial Services and the Committee on Resources of the House 
        of Representatives.
    AAHA is not aware of any attempt by HUD to comply with this 
mandate. The mandated report was supposed to be submitted to this 
Committee over 3 years ago! Again, we are aware of no effort by HUD to 
comply, and if it did, to our knowledge this information has never been 
shared with Indian country.
    The critical issue at this point in history, at least from AAHA's 
perspective, is that we are no longer interested in a study. Tribal 
Self-Governance has been aggressively pursued and implemented in Alaska 
now for over 15 years. Alaska has a higher concentration of Tribal 
Self-Governance Compacts than any region or State in the country. Most 
of the BIA funding and almost all of the IHS funding is already 
administered under Tribal Self-Governance Compacts. AAHA does not see 
``a study'' as providing any value or benefit in terms of the ultimate 
objective--the improvement in the delivery of housing programs and 
services to our beneficiaries. To the contrary, a study would simply be 
an unnecessary diversion and an unfortunate waste of scarce resources.
    Administering Federal Indian/Alaska Native programs and services 
within the framework of Tribal Self-Governance should no longer be 
considered novel, unique or something that needs to be done in a 
``demonstration'' mode. The reality is that Tribal Self-Governance is 
now a proven, ``mainstream'' model for the successful administration of 
Federal programs and services. It is time the model be extended to 
housing programs administered within HUD and that those Indian housing 
service providers who choose to exercise self-determination and self-
governance rights by adopting a self-Governance model be allowed this 
option.
    AAHA assumes the committee is well aware that NAHASDA is up for re-
authorization in 2007. While NAHASDA was a much needed improvement 
relative to the pre-NAHASDA administration of programs under the 
Housing Act of 1937, the act has significant defects and numerous 
substantive amendments are needed--starting with provisions that remove 
the necessity for some of the oppressive, bloated bureaucracy that 
stifles tribal innovation and drains much needed resources away from 
direct services in favor of meeting administrative/regulatory 
requirements that add little or nothing in terms of accountability or 
actual improved services. BIA's (and perhaps to a lesser extent IHS's) 
programmatic oversight pales in comparison relative to that currently 
exercised by HUD.
    As an example of just one gross inefficiency, funding under NAHASDA 
is provided and required to be tracked by the recipient on a separate 
grant year basis, with a lengthy ``Indian Housing Plan'' (much of which 
is needless boilerplate) to be submitted each fiscal year. This 
necessitates that recipients administer complex financial systems that 
have to spread the expenditures across multiple grants and submit a 
separate Annual Performance Report for each grant year that remains 
open, even though the goals and objective for each successive year are 
likely to be very similar if not identical. Under the Tribal Self-
Governance model, funds are simply rolled over from year to year and 
accounted for through the Federal Single Audit process until expended, 
a system which saves considerable administrative expense.
    In closing, AAHA respectfully requests that the committee exercise 
its jurisdiction to the fullest extent possible, and that members 
exercise their individual influence to assist tribes and tribal 
organizations to expand the tribal self-governance model--a model which 
has proven to be so successful in the BIA and HIS service delivery 
arena--into the delivery of HUD housing programs and services. In 
short, if Congress wants more and better services per dollar of funding 
provided, this is the clear path toward achieving that objective.
    Thank you for this opportunity to express our concerns and positive 
recommendations for how we can provide the highest quality services to 
the tribal members we serve, with the with the least amount of 
administrative bureaucracy, while maintaining the highest level of 
accountability to all interested parties.
[GRAPHIC] [TIFF OMITTED] 30040.001

[GRAPHIC] [TIFF OMITTED] 30040.002

[GRAPHIC] [TIFF OMITTED] 30040.003

[GRAPHIC] [TIFF OMITTED] 30040.004

[GRAPHIC] [TIFF OMITTED] 30040.005

[GRAPHIC] [TIFF OMITTED] 30040.006

[GRAPHIC] [TIFF OMITTED] 30040.007

[GRAPHIC] [TIFF OMITTED] 30040.008

[GRAPHIC] [TIFF OMITTED] 30040.009

[GRAPHIC] [TIFF OMITTED] 30040.010

[GRAPHIC] [TIFF OMITTED] 30040.011

[GRAPHIC] [TIFF OMITTED] 30040.012

[GRAPHIC] [TIFF OMITTED] 30040.013

[GRAPHIC] [TIFF OMITTED] 30040.014

[GRAPHIC] [TIFF OMITTED] 30040.015

[GRAPHIC] [TIFF OMITTED] 30040.016

[GRAPHIC] [TIFF OMITTED] 30040.017

[GRAPHIC] [TIFF OMITTED] 30040.018

[GRAPHIC] [TIFF OMITTED] 30040.019

[GRAPHIC] [TIFF OMITTED] 30040.020

[GRAPHIC] [TIFF OMITTED] 30040.021

[GRAPHIC] [TIFF OMITTED] 30040.022

[GRAPHIC] [TIFF OMITTED] 30040.023

[GRAPHIC] [TIFF OMITTED] 30040.024

[GRAPHIC] [TIFF OMITTED] 30040.025

[GRAPHIC] [TIFF OMITTED] 30040.026

[GRAPHIC] [TIFF OMITTED] 30040.027

[GRAPHIC] [TIFF OMITTED] 30040.028

[GRAPHIC] [TIFF OMITTED] 30040.029

[GRAPHIC] [TIFF OMITTED] 30040.030

[GRAPHIC] [TIFF OMITTED] 30040.031

[GRAPHIC] [TIFF OMITTED] 30040.032

[GRAPHIC] [TIFF OMITTED] 30040.033

[GRAPHIC] [TIFF OMITTED] 30040.034

[GRAPHIC] [TIFF OMITTED] 30040.035

[GRAPHIC] [TIFF OMITTED] 30040.036

[GRAPHIC] [TIFF OMITTED] 30040.037

[GRAPHIC] [TIFF OMITTED] 30040.038

[GRAPHIC] [TIFF OMITTED] 30040.039

[GRAPHIC] [TIFF OMITTED] 30040.040

[GRAPHIC] [TIFF OMITTED] 30040.041

[GRAPHIC] [TIFF OMITTED] 30040.042

[GRAPHIC] [TIFF OMITTED] 30040.043

[GRAPHIC] [TIFF OMITTED] 30040.044

[GRAPHIC] [TIFF OMITTED] 30040.045

[GRAPHIC] [TIFF OMITTED] 30040.046

[GRAPHIC] [TIFF OMITTED] 30040.047

[GRAPHIC] [TIFF OMITTED] 30040.048

[GRAPHIC] [TIFF OMITTED] 30040.049

[GRAPHIC] [TIFF OMITTED] 30040.050

[GRAPHIC] [TIFF OMITTED] 30040.051

[GRAPHIC] [TIFF OMITTED] 30040.052

[GRAPHIC] [TIFF OMITTED] 30040.053

[GRAPHIC] [TIFF OMITTED] 30040.054

[GRAPHIC] [TIFF OMITTED] 30040.055

[GRAPHIC] [TIFF OMITTED] 30040.056

[GRAPHIC] [TIFF OMITTED] 30040.057

[GRAPHIC] [TIFF OMITTED] 30040.058

[GRAPHIC] [TIFF OMITTED] 30040.059

[GRAPHIC] [TIFF OMITTED] 30040.060

[GRAPHIC] [TIFF OMITTED] 30040.061

[GRAPHIC] [TIFF OMITTED] 30040.062

[GRAPHIC] [TIFF OMITTED] 30040.063

[GRAPHIC] [TIFF OMITTED] 30040.064

[GRAPHIC] [TIFF OMITTED] 30040.065

[GRAPHIC] [TIFF OMITTED] 30040.066

[GRAPHIC] [TIFF OMITTED] 30040.067

[GRAPHIC] [TIFF OMITTED] 30040.068

[GRAPHIC] [TIFF OMITTED] 30040.069

[GRAPHIC] [TIFF OMITTED] 30040.070

[GRAPHIC] [TIFF OMITTED] 30040.071

[GRAPHIC] [TIFF OMITTED] 30040.072

[GRAPHIC] [TIFF OMITTED] 30040.073

[GRAPHIC] [TIFF OMITTED] 30040.074

[GRAPHIC] [TIFF OMITTED] 30040.075

[GRAPHIC] [TIFF OMITTED] 30040.076

[GRAPHIC] [TIFF OMITTED] 30040.077

[GRAPHIC] [TIFF OMITTED] 30040.078

[GRAPHIC] [TIFF OMITTED] 30040.079

[GRAPHIC] [TIFF OMITTED] 30040.080

[GRAPHIC] [TIFF OMITTED] 30040.081

[GRAPHIC] [TIFF OMITTED] 30040.082

[GRAPHIC] [TIFF OMITTED] 30040.083

[GRAPHIC] [TIFF OMITTED] 30040.084

[GRAPHIC] [TIFF OMITTED] 30040.085

[GRAPHIC] [TIFF OMITTED] 30040.086

[GRAPHIC] [TIFF OMITTED] 30040.087

[GRAPHIC] [TIFF OMITTED] 30040.088

[GRAPHIC] [TIFF OMITTED] 30040.089

[GRAPHIC] [TIFF OMITTED] 30040.090

[GRAPHIC] [TIFF OMITTED] 30040.091

[GRAPHIC] [TIFF OMITTED] 30040.092

[GRAPHIC] [TIFF OMITTED] 30040.093

[GRAPHIC] [TIFF OMITTED] 30040.094

[GRAPHIC] [TIFF OMITTED] 30040.095

[GRAPHIC] [TIFF OMITTED] 30040.096

[GRAPHIC] [TIFF OMITTED] 30040.097

[GRAPHIC] [TIFF OMITTED] 30040.098

[GRAPHIC] [TIFF OMITTED] 30040.099

[GRAPHIC] [TIFF OMITTED] 30040.100

                                 <all>

</pre></body></html>
